      Department of Homeland Security




             Science and Technology Directorate’s 

             Management Letter for FY 2011 DHS 

            Consolidated Financial Statement Audit 





OIG-12-59                                         March 2012

                                                              Office   ()fln.~pe(lOr   General

                                                              U.S. Depurlment of Homeland Security
                                                              W(I.';hington. IX 20528




                                                              Homeland
                                                              Security

                           MAR 142012
                                              Preface

The Department of Homeland Security (DHS) Office of Inspeclor General (OIG) was
established by the Homeland Security Act 0.f2002 (Public Law lO7-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report presents the Science and Technology Directorate's Management Letter for
FY 2011 DHS Consolidated Financial Statements Audit. It contains observations related
to intcrnal controls that were not required to be reported in the financial statements audit
report. The independent public accounting firm KPMG LLP (KPMG) performed the
integrated audit of DHS' FY 2011 financial statements and internal control over financial
reporting and prepared this management letter. KPMG is responsible for the attached
management letter dated February 3, 2012 and the conclusions expressed in it. We do
not express opinions on DRS' financial statements or internal control or provide
conclusions on compliance with laws and regulations.

The observations herein have been discussed in draft with management officials. We
trust this report will result in more effective, efficient, and economical operations. We
exprcss our appreciation to all of those who contributed to the preparation of this report.

                                                c(AcA..< ;(U~,
                                              Anne L. Richards
                                              Assistant Inspector General for Audits
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006
February 3, 2012


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security Science and Technology Directorate
Washington, DC


Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2011 and the related statement of custodial activity for the year
then ended (referred to herein as the “fiscal year (FY) 2011 financial statements”). The objective
of our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to examine the Department’s internal control over financial reporting of the
balance sheet as of September 30, 2011, and statement of custodial activity for the year then ended,
based on the criteria established in Office of Management and Budget, Circular No. A-123,
Management’s Responsibility for Internal Control, Appendix A.
Our Independent Auditors’ Report issued on November 11, 2011, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on DHS’ FY 2011 financial statements and internal control over financial
reporting. In addition, the FY 2011 DHS Secretary’s Assurance Statement states that the
Department was unable to provide assurance that internal control over financial reporting was
operating effectively at September 30, 2011. We have not considered internal control since the
date of our Independent Auditors’ Report.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance. In accordance with Government Auditing
Standards, our Independent Auditors’ Report, referred to in the paragraph above, included internal
control deficiencies identified during our audit, that individually, or in aggregate, represented a
material weakness or a significant deficiency.
The Science and Technology Directorate (S&T) is a component of DHS. We noted certain
matters, related to S&T that are summarized in the Table of Financial Management Comments on
the following pages, involving internal control and other operational matters that are less severe
than a material weakness or a significant deficiency, and consequently are reported separately to
the Office of Inspector General (OIG) and S&T management in this letter. These comments and
recommendations, all of which have been discussed with the appropriate members of management,
are intended to improve internal control or result in other operating efficiencies. The disposition of
each internal control deficiency identified during our FY 2011 audit – as either reported in our
Independent Auditors’ Report, or herein – is presented in Appendix A. The

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
status of internal control deficiencies identified during our FY 2010 audit is presented in Appendix
B.
We would be pleased to discuss these comments and recommendations with you at any time. This
report is intended for the information and use of DHS’ and S&T’s management, the DHS Office of
Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and the
Government Accountability Office, and is not intended to be and should not be used by anyone
other than these specified parties.


Very truly yours,
                                  Science and Technology Directorate
                               Table of Financial Management Comments
                                          September 30, 2011

              TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

Comment

Reference   Subject                                                                              Page(s)


FMC 11-01   Inadequate Internal Controls over Reporting of Construction in Progress and             2
            Buildings
FMC 11-02   Untimely De-obligation of Undelivered Orders                                            2
FMC 11-03   Inadequate Controls over New Hire Ethics Briefings                                      2
FMC 11-04   Insufficient Internal Controls to Ensure Timely Reporting of Internal Use Software      3
            in Development and Personal Property




                                              APPENDIX

Appendix    Subject                                                                               Page

    A       Crosswalk – Financial Management Comments to Active Notices of Finding and              4
            Recommendation (NFRs)
    B       Status of Prior Year NFRs                                                               5




                                                      1

                                  Science and Technology Directorate
                                   Financial Management Comments
                                          September 30, 2011


FMC 11-01 – Inadequate Controls over Reporting of Construction in Progress and Buildings (NFR
No. S&T 11-01)

       During testwork over a sample of five property additions as of June 30, 2011, we noted that two
       sample items were for construction services received prior to fiscal year (FY) 2011. We noted
       that construction in progress (CIP) costs for the National Bio and Agro Defense Facility in FY
       2007 – 2009 were not capitalized until FY 2011 and CIP costs incurred in FY 2010 were not
       capitalized until receipt of invoices in FY 2011.

       Recommendations:
       We recommend that Science and Technology Directorate (S&T):
       •	 Implement policies and procedures to accurately and timely capture and record capitalized
          CIP costs.
       •	 Develop policies and procedures for the accrual of capitalized CIP costs.

FMC 11-02 – Untimely De-obligation of Undelivered Orders (NFR No. S&T 11-02)

       We selected a statistical sample of 25 items from the population of aged undelivered orders
       (UDOs) as of June 30, 2011, and noted that eight items were invalid, and should have been de-
       obligated. We noted that these obligations were approved for de-obligation in prior fiscal years
       but S&T had not yet completed the review or de-obligation process.

       Recommendations:
       We recommend that S&T:
       •	 Perform a targeted review for “stale” obligations.
       •	 Continue to utilize quarterly verification and validation procedures for UDOs.

FMC 11-03 – Inadequate Controls over New Hire Ethics Briefings (NFR No. S&T 11-03)

       We selected a sample of ten new hires from S&T from October 1, 2010 through June 30, 2011,
       and noted that a sign-in sheet for attendance at a new hire ethics orientation could not be
       produced for one individual. We noted that the individual was employed at an out of town
       location, but noted that employees at remote locations are subject to the training requirements, but
       can fulfill the training electronically or by reviewing printed materials. We noted that the
       employee did not fulfill any of the requirements.

       Recommendation:
       We recommend that S&T continue to utilize and enforce policies related to ethics briefings for
       newly hired employees.




                                                    2

                                 Science and Technology Directorate
                                  Financial Management Comments
                                         September 30, 2011


FMC 11-04 – Insufficient Internal Controls to Ensure Timely Reporting of Internal Use Software in
Development and Personal Property (NFR No. S&T 11-04)

       During testwork over capitalized property additions for the fourth quarter of FY 2011, we noted
       that S&T capitalized $355,142 of costs related to services received in the third quarter of FY
       2011 for the First Responders Communities of Practice Beta version project and Biodefense
       Knowledge Management System.

       Recommendations:
       We recommend that S&T:
       •	 Implement policies and procedures to accurately and timely capture and record capitalized
          software costs.
       •	 Develop policies and procedures for the accrual of capitalized software costs.




                                                  3

                                                                                                                 Appendix A
                                     Science and Technology Directorate
                         Crosswalk - Financial Management Comments to Active NFRs
                                             September 30, 2011


                                                                                                  Disposition1
                                                                                                 IAR                FMC
     NFR No.                                 Description                              MW         SD        NC        No.
                   Inadequate Internal Controls over Reporting of Construction-In-
       11-01                                                                                                        11-01
                   Progress (CIP) and Buildings
       11-02       Untimely De-obligation of Undelivered Orders                                                     11-02
       11-03       Inadequate Controls over New Hire Ethics Briefings                                               11-03
                   Insufficient Internal Controls to Ensure Timely Reporting of
       11-04       Internal Use Software (IUS) in Development and Personal                                          11-04
                   Property


1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated November 11, 2011
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws,regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Fund Balance with Treasury
H         Grants Management
I         Custodial Revenue and Drawback
J         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
K         Federal Financial Management Improvement Act of 1996 (FFMIA)
L         Single Audit Act Amendments of 1996
M         Chief Financial Officers Act of 1990 (CFO Act)
N         Antideficiency Act, as amended (ADA)
O         Government Performance and Results Act of 1993 (GPRA)




                                                              4

                                                                                                                   Appendix B
                                          Science and Technology Directorate
                                               Status of Prior Year NFRs
                                                  September 30, 2011




                                                                                                          Disposition1
    NFR                                                                                                           Repeat
                                               Description                                        Closed2
     No.                                                                                                     (2011 NFR No.)
    10-01   Inadequate Internal Controls over Reporting of CIP and Buildings                                    S&T 11-01
            Insufficient Internal Controls to Ensure Timely Reporting of IUS in Development
    10-02                                                                                                        S&T 11-04
            and Personal Property

1
 KPMG was engaged to perform an audit over the DHS balance sheet and statement of custodial activity as of and for the year
ended September 30, 2011, and was not engaged to perform an audit over the statement of net cost, statement of changes in net
position, and statement of budgetary resources for the year ended September 30, 2011. In addition, we were engaged to follow-
up on the status of all active NFRs that supported significant deficiencies reported in our FY 2010 Independent Auditors’ Report.


2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                                5

Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Science and Technology Directorate

                      Under Secretary
                      Director, Finance and Budget
                      Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
